                                    Office of Inspector General
u.s. Department of Labor            Washington, D.C. 20210




     MEMORANDUM FOR: 	          DANIEL J. LACEY 

                                Acting Deputy Chief Financial Officer 



                                ~p.~                              

     From:                      ELLIOT P. LEWIS 

                                Assistant Inspector General 

                                 for Audit 


     Subject: 	                 Alert Memorandum: Critical Deadlines Associated with the
                                U.S. Department of Labor Fiscal Year 2010 Consolidated
                                Financial Statement Audit
                                Report Number: 22-10-017-13-001


     In our prior Alert Memorandum dated March 30, 2010, we expressed our concerns
     associated with the U.S. Department of Labor's (DOL) ability to prepare auditable
     consolidated financial statements for Fiscal Year (FY) 2010 in time for KPMG LLP
     (KPMG) to be able to complete their audit and issue an opinion on those statements by
     November 15, 2010, in accordance with the Office of Management and Budget's (OMB)
     Bulletin No. 07-04, Audit Requirements for Federal Financial Statements, as amended.
     The purpose of this memorandum is to highlight certain key dates, identified in the
     attached schedule, which must be met by you and your staff to allow KPMG sufficient
     time to complete the necessary FY 2010 audit procedures. Failure to meet these dates
     with complete and accurate information will critically impact KPMG's ability to complete
     its audit procedures and issue an opinion on all FY 2010 consolidated financial
     statements as required by OMB.

     It is our understanding that your staff has not been able to provide requested
     documentation related to KPMG's audit procedures over DOL's conversion from the
     Department of Labor Accounting and Related Systems (DOLAR$) to the New Core
     Financial Management System (NCFMS) and DOL's first quarter activities by the
     requested due dates. We understand that many of these delays are a result of staff
     working on competing priorities, including the implementation of NCFMS. As you begin
     to finalize your plan for closing the second, third, and fourth quarters of FY 2010 and
     preparing the consolidated financial statements, we strongly recommend you commit
     the necessary resources to adhere to all deliverable due dates in KPMG's "prepared by
     client" (PBC) lists and those identified in the attached schedule. In past years, KPMG
     has been able to work with your staff when additional time has been needed to produce
     requested documentation. Unfortunately, given the significant delays you are currently
     experiencing as a result of the issues associated with the NCFMS implementation, no
     additional time exists in the audit completion schedule to compensate for any delays in
     meeting future PBC due dates.




                             Working for America's Workforce
Additionally, we recommend you complete all reconciliations between NCFMS and all
subsidiary systems, and all reconciliations of Fund Balance with Treasury, prior to
providing NCFMS data extract files to KPMG. These reconciliations are critical to
ensuring the completeness and accuracy of the information reported in NCFMS. Due to
numerous issues associated with the integration of the subsidiary systems and NCFMS,
we believe it is critical that such reconciliations be performed prior to KPMG pulling its
samples from the NCFMS data extracts and DOL expending the time to pull the
supporting documentation for these samples.

It is also important that DOL meets the milestone dates in the project plan you
developed to resolve the issues surrounding the NCFMS data migration. We note that in
some cases you are ahead in the execution of elements of the plan and in some cases
behind. In order to meet the key dates in the attachment, DOL will need to complete the
identified tasks in the project plan in a timely manner.

Once again, we recognize that you and your staff are working very hard to address the
significant challenges related to the implementation of NCFMS, and we appreciate your
efforts in working with KPMG and my staff. Likewise, we are working very hard and will
do everything we can to accomplish the audit. However, if the key dates reflected in the
attached schedule are not met with complete and accurate information and the
milestone dates in the project plan referenced above are not met, all of these efforts
may not be sufficient to allow KPMG to issue an opinion on all of the DOL FY 2010
financial statements by the OMB reporting deadline of November 15, 2010.
                                                                     Attachment


                                 u.s. Department of Labor
                    FY 2010 Consolidated Financial Statement Audit
                                  Critical Deadlines


Description
                                               Due No Later Than:
All requested PBC items related to the first   April 30, 2010
 uarter ended 12/31/09

NCFMS download of general ledger               June 11, 2010
transactions, requested populations from
subsystems, and related reconciliations for
the second uarter ended 3/31110
All requested PBC items related to the         June 25, 2010
second uarter ended 3/31/10

NCFMS download of general ledger
transactions, requested populations from
subsystems, and related reconciliations for
the third uarter ended 6/30/10
All requested PBC items related to the         August 20,2010
third uarter ended 6/30/10

NCFMS download of general ledger
transactions, requested populations from
subsystems, and related reconciliations for
the two months ended 8/31/10
All requested PBC items related to the two     October 4,2010
months ended 8/31/10

NCFMS download of general ledger
transactions, requested populations from
subsystems, and related reconciliations for
the month ended 9/30/10
All requested PBC items related to month       October 19, 2010
ended 9/30/10

Draft consolidated financial statements for
                                               October 25, 2010
the      ended 9/30/10
